eagReek0
CERTIFICATE OF WORD COUNT
NO. 19-251 & 19.255
Americans for Prosperity Foundation,
Petitioner,
v.
Xavier Becerra, Attorney General of California,
Respondent.
Thomas More Law Center,
Petitioner,
v.
Xavier Becerra, Attorney General of California,
Respondent.

STATE OF OHIO
COUNTY OF CUYAHOGA ) SS.:
Being duly sworn, I depose and say:
That I am over the age of 18 years and am not a party to this action. I am the
Counsel of Record for Amicus THE BUCKEYE INSTITUTE, the preparer of
the document, with a mailing address at 88 East Broad Street, Suite 1300,
Columbus, Ohio 43215.
That, as required by Supreme Court Rule 33.1(h), I certify that THE
BUCKEYE INSTITUTE AND 34 PUBLIC POLICY RESEARCH
ORGANIZATIONS AND ADVOCACY GROUPS AMICUS AT PETITION
STAGE IN SUPPORT OF PETITIONERS contains 7,512 words, including the
parts of the brief that are required or exempted by Supr- e Court Rule 33.1(d).
I declare under penalty of perjury that the fore

March 15, 2021

e aid correct.

